No.

 

 

IN THE
Supreme Court of the Anited States

ANGEL C. PACHECO,
Petitioner,
v.
STATE OF MAINE,

Respondent.

On Petition for a Writ of Certiorari to
the Maine Supreme Judicial Court
Sitting as the Law Court

PROOF OF SERVICE

I, Rory A. McNamara, do swear or declare that on this date, August 27, 2019,
as required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI on each party to the proceeding or that party’s counsel, by mailing, via
the United States Postal Service first-class postage prepaid, an envelope containing
the above documents properly addressed to each of them for delivery within 3
calendar days at: Donald W. Macomber, A.A.G., Office of the Attorney General, 6
State House Station, Augusta, ME 04333.

I declare under penalty of perjury that the following is true and correct.
Dated August 27, 2020 Rory A. McNamara
Counsel of Record for Petitioner
Drake Law, LLC
P.O. Box 143
York, ME 03909
rory@drakelawllc.com
